         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report

The Los Alamos National
Laboratory Hydrodynamic Test
Program




DOE/IG-0699                            September 2005
THE LOS ALAMOS HYDRODYNAMIC TEST PROGRAM

Testing Delays   Los Alamos did not complete all hydrotests as scheduled.
                 Fifteen hydrotests were scheduled in Fiscal Years (FY)
                 2002 through 2004. Of these, six were completed as
                 scheduled, six were delayed up to two years, and three had
                 not been completed as of April 2005. Future hydrotests
                 may also be at risk.

                                     Hydrotest Objectives

                 In FY 2002, Los Alamos scheduled five hydrotests but
                 completed only two of those tests. These tests were in
                 support of the W76, B61, and W88 Life Extension
                 Programs (LEP). In addition, the W76 baseline test that
                 was completed had to be redone due to test set errors that
                 compromised the data. Two of the three remaining tests
                 were rescheduled for FY 2003 and the third test was
                 rescheduled for FY 2004. Similar delays occurred in the
                 FY 2003 hydrotest schedule. For example, a W78 safety
                 hydrotest scheduled in FY 2003 had not been conducted at
                 the time of this audit.

                 To its credit, in FY 2004 Los Alamos completed 7 of the 10
                 hydrotests scheduled, including two carryover tests from
                 FY 2003. Los Alamos officials pointed out that, until the
                 Laboratory suspended operations in July 2004, all
                 hydrotests were completed as scheduled in FY 2004.
                 Furthermore, Los Alamos noted that preparations for the
                 remaining hydrotests were proceeding on schedule when
                 the suspension occurred.

                 Although Los Alamos made progress during FY 2004
                 towards recovering its hydrotest schedule, it did so in large
                 part by keeping its Pulsed High Energy Machine Emitting
                 X-rays (PHERMEX) facility open longer than planned.
                 Specifically, four of the seven tests were performed at
                 PHERMEX in FY 2004. PHERMEX executed its final
                 hydrotest in February 2004 and was shut-down in April
                 2004.

                                      Future Objectives

                 In the absence of PHERMEX, Los Alamos may not have
                 the necessary capacity to meet future hydrotesting needs.
                 Los Alamos is able to conduct about six hydrotests a year
                 at the DARHT facility. (See Appendix 2 for a photograph
                 of the DARHT facility). Prior to the July 2004 suspension



Page 1                                                    Details of Findings
             of operations, Los Alamos had forecasted demand to
             exceed capacity beginning in FY 2005. Specifically, Los
             Alamos projected the need to conduct seven hydrotests in
             FY 2005, not including carryover tests from FY 2004, and
             eight hydrotests in FY 2006. Because Los Alamos may not
             have the capacity to meet this demand, it will likely have to
             delay certain tests in these years. Projected demand in FYs
             2007 through 2009 is even greater. For example, Los
             Alamos projected the need to perform 11 hydrotests in
             FY 2009.

             Los Alamos officials advised us in July 2005 that they
             believe the DARHT facility can meet future requirements,
             in part, through engineering and logistical improvements
             that reduced turn-around time limitations. Although
             management currently believes that improvements will
             allow DARHT to carry out scheduled tests, as previously
             noted, Los Alamos had to rely on a second facility,
             PHERMEX, in order to execute scheduled tests in
             FY 2004.

Hydrotest    Although some hydrotests had been delayed by external
Management   events outside the control of the management, such as fire
             hazards, Los Alamos had not fully implemented key project
             management tools or adopted programmatic changes that
             could increase its efficiency in conducting such tests. For
             example, Los Alamos' hydrotest program did not make full
             use of project management tools to control the scope of
             work and allocate sufficient resources to the tests, nor did it
             use the most efficient method to mitigate the dispersal of
             materials into the environment when tests were performed.
             In addition, NNSA had not implemented a key objective of
             its National Hydrodynamic Plan that is necessary to
             maximize the utilization of hydrotest facilities available at
             Lawrence Livermore National Laboratory (Livermore).

                          Los Alamos Project Management

             Although Los Alamos conducted hydrotests as separate
             projects, it had not fully prepared project execution
             documents, such as work packages, to plan the scope and
             schedule of work and allocate resources to the various
             tasks. Specifically, work packages to complete tests did
             not describe the scope of work at a manageable level, but
             rather described broad objectives such as to "identify and
             perform required design, procurement, fabrication, and



Page 2                                                Details of Findings
         assembly of the integrated test assembly of the
         experiment." The broad definition of work scope also often
         dispersed responsibility for completing the work among
         several organizations with separate chains of management,
         thereby, lessening control and accountability for
         completing specific tasks. We found that 22 of the 46 work
         packages in Fiscal Year 2004 did not have a specific
         manager assigned to completing the work.

         To facilitate project completion, work packages should
         contain meaningful, manageable, measurable, and
         authorized units of work that represent project scope at the
         lowest level of detail. Furthermore, work packages should
         be assigned to an individual with specific responsibility and
         authority to complete the work.

         The importance of adequate planning was illustrated in
         February 2004 when a crane was damaged while
         remediating the firing point at DARHT. The firing point
         was being cleaned in preparation for the next test.
         According to an investigative report conducted by Los
         Alamos, the root cause of the incident was identified as a
         failure by Hydrotest Program managers to adequately plan
         and resource load shot recovery activities. Los Alamos
         failed to identify all the resources necessary to perform
         firing pad remediation and, therefore, those resources were
         not available when needed. As a result, the following
         hydrotest was delayed almost two months.

         Los Alamos officials stated that, in response to schedule
         slippages in FYs 2002 and 2003, they restructured the
         Hydrotest Program and made improvements in its project
         management practices in late FY 2003. Officials attributed
         the progress in completing scheduled hydrotests in
         FY 2004 to these improvements. However, as
         demonstrated above, project management weaknesses
         persist in defining the scope of work packages and ensuring
         that managers are assigned to them. In fact, Los Alamos
         management agreed that the implementation of work
         packages continue to mature.

                             Mitigation Strategy

         The current strategy utilized at DARHT to mitigate the
         dispersal of materials to the environment during a test is not
         the most efficient. Before a hydrotest is performed at Los



Page 3                                           Details of Findings
         Alamos, a tent structure is constructed over the firing pad
         and filled with aqueous foam to mitigate releases of
         materials such as beryllium, depleted uranium, and lead
         into the environment. It takes approximately two months to
         clean up the DARHT firing pad following a hydrotest using
         foam to control releases. Although Los Alamos uses foam,
         it is neither the only form of mitigation nor is it the
         preferred method. (Appendix 2 contains photographs
         illustrating the foam method of mitigation.)

         According to the DARHT Record of Decision (ROD),
         containment vessels are the preferred alternative for
         mitigating releases of materials during a hydrotest. In fact,
         Los Alamos planned to use vessels once the first axis of
         DARHT was operational in July 1999. Specifically, the
         ROD indicated that during Phase 1 (years 1-5), a vessel
         prototype program would be initiated utilizing an existing
         vessel design modified for use at DARHT, while designing
         a new vessel specifically suited for DARHT testing. Phase
         2 (years 6-10) called for the utilization of the newly
         designed DARHT vessel and the implementation of an
         extensive vessel program. However, according to Los
         Alamos officials, they did not fully implement Phase 1 of
         the vessel program. Further, our audit determined that Los
         Alamos is about a year behind schedule in conducting the
         first Phase 2 hydrotest using a vessel at DARHT.
         According to Los Alamos officials, the recent stand-down
         and other programmatic missions have affected vessel
         implementation at Los Alamos. (Appendix 2, photograph
         4, illustrates a vessel.)

         Vessels would improve the turnaround time of each
         hydrotest since they could be moved off the firing pad and
         cleaned at a remote facility. This would allow another
         hydrotest to be moved to the firing pad, thereby expediting
         the hydrotest schedule. In addition, the amount of waste
         generated from these tests would be reduced.

         Los Alamos officials stated that improvements have
         reduced cleanup time to only 2 to 3 weeks and is no longer
         the rate-controlling factor for DARHT hydrotest capacity.
         Los Alamos also noted that less mature vessel designs
         would have yielded significantly inferior data quality than
         provided through the use of foam.




Page 4                                           Details of Findings
               Despite efforts to reduce the time required to cleanup the
               site, Los Alamos officials, in subsequent discussions,
               agreed that the use of foam mitigation could impact the rate
               at which hydrotests can be conducted at DARHT.
               Regarding the ability of vessels to provide desired data
               quality, as previously noted, Los Alamos did not fully
               implement its program to develop vessel containment.

                          NNSA National Hydrodynamic Plan

               NNSA had not implemented a key objective of its National
               Hydrotest Plan to make best use of facilities at Los Alamos
               and Livermore. In October 2003, NNSA directed Los
               Alamos and Livermore to develop a National Hydrotest
               Plan (NHP) that addressed mission need and made best use
               of national user facilities, such as DARHT and Site 300 at
               Livermore, which directly supports the hydrotest program.
               NHP also required that a proof of principle shot first be
               completed at Livermore to ensure that hydrotests Los
               Alamos transferred to Livermore would yield reliable data.
               Los Alamos scientists had expressed concern that the
               Livermore facility did not have the data collection
               capability of DARHT.

               As directed, Los Alamos and Livermore established the
               criteria to be used when determining where a hydrotest is to
               be conducted. Further, Livermore has executed hydrotests
               at Los Alamos, however, Los Alamos had not yet
               conducted the proof of principle shot. The proof of
               principle shot was planned at Livermore in FY 2005, but
               was removed from the schedule following the Los Alamos
               security stand-down. Because of competing priorities, Los
               Alamos had not re-scheduled the proof of principle shot.
               Effective implementation of the NHP offers the opportunity
               to maximize the use of the laboratories to meet the demand
               for hydrotests.

Consequences   Hydrotest results are critical to the Department's confidence
               in making the annual certification of the safety, reliability
               and performance of the nuclear weapons stockpile.
               Without these tests data, scientists lose one of their most
               important tools for evaluating the performance of weapon
               components, computer models, and aging of
               remanufactured components. Moreover, since the majority




Page 5                                                 Details of Findings
                  of tests currently being conducted at Los Alamos are in
                  support of the W76 LEP, any further slippages of the test
                  schedule could also impact W76 LEP milestones and
                  possibly the first production unit scheduled for FY 2007.


RECOMMENDATIONS   We recommend that the Administrator, NNSA, ensure that
                  the Los Alamos National Laboratory:

                    1. Develop and utilize project execution plans for
                       hydrotest projects, including work packages, that
                       contain meaningful, manageable, measurable and
                       authorized units of work, and represent project scope
                       at the lowest level of detail.

                    2. Assign these work packages to appropriate managers
                       to control the execution of the work;

                    3. Reevaluate the current mitigation strategy utilized at
                       the DARHT facility and expedite the current vessel
                       schedule utilizing the decision reached in the
                       DARHT ROD; and,

                   4. Fully implement the National Hydrotest Plan.


  Management      Management generally concurred with the findings
  Reaction        and accepted the recommendations in the report.
                  Management noted that, with respect to our
                  recommendations pertaining to project management, Los
                  Alamos has effectively implemented project management
                  tools as demonstrated by the successful execution of two
                  hydrodynamic tests since the restart of operations.

                  Management agreed that the current mitigation techniques
                  deployed at DARHT may not be the most ideal and they
                  continue to evaluate newer concepts. However, the current
                  foam mitigation techniques far exceed the environmental
                  limits contained within the DAHART ROD, while
                  maintaining the word class hydrodynamic testing.




Page 6                                 Recommendations and Comments
             Management noted that the DARHT ROD is an
             environmental impact document and should not be
             referenced as the technical basis for achieving goals.
             Management also contended that activities associated with
             foaming are not the rate-controlling step for DARHT's shot
             capacity. Further, there is an aggressive schedule for
             deploying vessels that will further improve hydrodynamic
             testing data.

             Finally, management agreed that the implementation of
             the National Hydrotest Plan is important and the goal of
             executing a test at Livermore is still being pursued.
             Management stated that the ability to execute a Los
             Alamos designed hydroshot at Livermore would help to
             promote the effective utilization of resources between the
             two laboratories. Management, however, disagreed that
             failure to achieve this one goal is indicative of failure to
             implement the entire plan.

  AUDITOR    Management's comments were responsive to the
  COMMENTS   recommendations. As a result of our audit, Los Alamos
             implemented improved project management tools. We
             noted that the usage of these tools has led to the successful
             execution of hydrotests since the restart of operations.
             However, our work has shown that additional project
             management improvements are needed regarding
             adequately defining hydrotest work scope and assigning all
             work packages to specific managers. As noted previously,
             Los Alamos acknowledged that project management
             continues to mature.

             We agree that the foam mitigation meets the environmental
             limitations defined in the ROD. However, as previously
             discussed, foam mitigation is not the most efficient means
             and management has acknowledged it is exploring more
             efficient options. In fact, the use of foam actually increases
             the amount of low-level waste that must be disposed of by
             Los Alamos. Although management indicates that the
             DARHT ROD should not be referenced as a technical basis
             for achieving goals, we noted that the vessel system
             requirement was part of the DARHT funding line item
             project, and that NNSA has invested in the infrastructure
             necessary to utilize vessels rather than foam as part of the
             project.




Page 7                                                        Comments
         We also recognize that other factors, such as assembly of
         test devices, can dictate the number of hydrotests in any
         given year. However, Los Alamos officials have
         acknowledged that the use of foam could impact the rate at
         which hydrotests can be conducted at DARHT.
         Additionally, Los Alamos attributed delays in one W76
         related hydrotest to the cleanup of the DARHT firing pad
         following a foam-mitigated test. Also, a senior Los
         Alamos Hydrotest Program scientist told us that foam
         containment dramatically increased hazards to the workers
         involved at the firing point and increased the time and
         costs associated with executing hydrotests.

         Finally, we agree with management that demonstrating
         the ability to execute a Los Alamos designed hydrotest at
         Lawrence Livermore is important to the effective
         utilization of resources at the two laboratories. However,
         we did not intend to imply that the failure to achieve this
         one goal is indicative of failure to implement the entire
         plan.




Page 8                                                  Comments
Appendix 1


OBJECTIVE     The objective of this audit was to determine if the Los
              Alamos Hydrodynamic Test Program is meeting its schedule
              for conducting hydrotests.


SCOPE         The audit was performed between February 2004 and May
              2005 at NNSA Headquarters, Los Alamos National
              Laboratory, and Lawrence Livermore National Laboratory.
              The audit examined FY's 2002 to 2004 hydrotest activity.


METHODOLOGY   To accomplish the audit objective, we:

                 • Reviewed applicable public laws, Department orders,
                   other Departmental guidance, related correspondence,
                   and contracts;

                 • Reviewed prior Office of Inspector General and
                   Government Accountability Office reports;

                 • Reviewed compliance with the Government
                   Performance and Results Act of 1993;

                 • Examined Hydrodynamic Test Plans for FY's 2002 -
                   2004;

                 • Analyzed the DARHT Record of Decision;

                 • Interviewed key Headquarters, Los Alamos, and
                   Livermore personnel;

                 • Analyzed project management documentation for
                   FY 2004 Hydrotest projects;

                 • Examined briefings related to the Los Alamos
                   Hydrodynamic Test Program; and,

                 • Reviewed hydrotest folders related to the various
                   scheduled tests.

              The audit was conducted in accordance with generally
              accepted Government auditing standards for performance
              audits and included tests of internal controls and compliance
              with laws and regulations to the extent necessary to satisfy



Page 9                             Objective, Scope, and Methodology
Appendix 1 (continued)

                   the objective of the audit. Accordingly, we assessed the
                   significant internal controls and performance measures
                   established under the Government Performance and Results
                   Act of 1993. Specifically, we found that performance
                   measures are in place relating to the hydrodynamic test
                   program. Because our review was limited, it would not
                   necessarily have disclosed all internal control deficiencies
                   that may have existed at the time of our audit. Computer
                   processed data was not relied upon extensively in the
                   conduct of this audit. NNSA waived the exit conference.




Page 10                                 Objective, Scope, and Methodology
Appendix 2


        HYDRODYNAMIC TEST FACILITY, FOAMING, AND VESSELS

The photographs below are provided to aid readers in understanding hydrotest activities
at Los Alamos.

.




                An aerial photograph of the Los Alamos DARHT facility.




                The foaming structure on the firing pad prior to a hydrotest.

Prior to a test, the tent structure is filled with aqueous foam to mitigate releases of
materials to the environment.


Page 11                                                        Hydrodynamic Test Facility
Appendix 2 (continued)




                     The firing pad after a winter 2004 hydrotest shot.




                       A schematic representing a hydrotest vessel.

The use of a vessel similar to the schematic was identified as the preferred alternative in
the DARHT Record of Decision. The vessel would be moved off of the firing pad for
cleanup and preparation.




Page 12                                                      Hydrodynamic Test Facility
Appendix 3

                                  PRIOR REPORTS


OFFICE OF INSPECTOR GENERAL REPORTS

  •   Refurbishment of the W80--Weapon Type (DOE/IG-0590, March 2003). The
      audit disclosed that it is unlikely that National Nuclear Security Administration's
      (NNSA) W80 refurbishment project will meet cost, schedule, scope, and
      milestones established in the project plan. Specifically, the audit found that
      Lawrence Livermore National Laboratory and Sandia National Laboratory had
      cancelled and delayed testing, weapon component completion, and support
      facility renovation activities, without notifying NNSA or updating project plans.
      Further, key management controls were not in place or operating as intended.

  •   Dual Axis Radiographic Hydrodynamic Test Facility (DARHT) (DOE/IG-0599,
      May 2003). The audit disclosed that the DARHT would not be complete before
      June 2004, 15 months behind schedule. Additionally, scope changes had reduced
      or eliminated work elements; critical activities had been shifted to other
      programs; and, some activities were being completed using non-project funds.
      These activities gave the erroneous appearance that total project costs had
      remained within planned budget. The audit also found that project management
      control, as exercised by the NNSA and Los Alamos needed improvement.
      Consequently, delays in completion of DARHT may impede the performance of
      the Stockpile Stewardship Program.

  •   The Department of Energy's Tritium Extraction Facility (TEF) (DOE/IG-0560,
      June 2002). The audit disclosed that the TEF would cost more than planned.
      Based on current progress, it is unlikely that the facility will be completed by
      February 2006. Project management officials estimated that total project cost
      would increase $500 million. Also, the facility may not be completed until
      December 2006, and it may not contain all elements of the original specifications.
      Completion of the TEF within its baseline cost, schedule, and scope was in
      jeopardy because the project team had not made full use of available project
      management controls. Consequently, NNSA cannot be assured that the facility
      will be available when needed or that project funds are being expended
      efficiently. The delays in completion of the TEF Project has the potential to
      impede performance of the Stockpile Stewardship Program.

  •   National Nuclear Security Administration's Planning, Programming, Budgeting,
      and Evaluation Process (PPBE) (DOE/IG-0614, August 2003). A PPBE process
      uses short-term and long-term planning to define program requirements and
      matches requirements with budgetary resources. NNSA's Administrator
      established an overall objective that the PPBE process becomes the core
      management protocol for NNSA. The audit disclosed that NNSA's PPBE process
      had not yet resulted in changes for existing financial and budgeting systems at the



Page 13                                                                    Prior Reports
Appendix 3 (continued)

      NNSA management and operating contractors visited because the field role had
      not been fully developed for FY 2004. Without full implementation, NNSA could
      not fully benefit from the new PPBE system.

OTHER REPORTS

  •   Nuclear Weapons Improved Management Needed to Implement Stockpile
      Stewardship Program Effectively (GAO-01-48, December 2000). Over the last
      few years, the Office of Defense Programs (DP) has taken steps to address the
      principal challenges facing the Stockpile Stewardship Program. However, the
      Government Accountability Office (GAO) found that additional improvements
      are needed to (1) remedy weaknesses in the program's planning processes; (2)
      ensure that required budget information for effective cost management is
      available; (3) correct organizational and leadership deficiencies; and, (4) develop
      an effective management process for overseeing the life extension process for
      nuclear weapons. Specifically, DP is still trying to determine some key
      requirements for the Stockpile Stewardship Program, such as validating the
      quantities of weapons to be refurbished. Also, a Congressionally mandated plan
      to manage the life extension of nuclear weapons does not contain complete
      schedules and budget information. Also, several studies have found that DP has a
      dysfunctional organization with unclear lines of authority that lead to a lack of
      accountability.

  •   Nuclear Weapons: Status of Planning for Stockpile Life Extension (GAO-02-
      146R, December 2001). GAO found that NNSA's Office of Defense Programs
      (DP) is not developing a comprehensive stockpile life extension program plan as
      called for in Section 3133 of the National Defense Authorization Act for FY
      2000. Specifically, DP issued an "interim plan" in May 2000. However, this
      interim plan was essentially a description of the life extension process and did not
      meet all of the requirements stated in section 3133. Further, DP believes that their
      FY 2002 budget submittal fulfills the legislative requirement, and they have no
      current plans to complete a comprehensive plan for the stockpile life extension
      program.




Page 14                                                                    Prior Reports
Appendix 4




Page 15      Management Comments
Appendix 4 (continued)




Page 16                  Management Comments
Appendix 4 (continued)




Page 17                  Management Comments
                                                            IG Report No. DOE/IG-0699


                         CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.

Name                                          Date ______________________________


Telephone                                     Organization ________________________

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                 Washington, DC 20585
                              ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
